No. 20-437

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
REFUGIO PALOMAR-SANTIAGO
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CONDITIONAL CROSS-MOTION OF THE UNITED STATES
IN RESPONSE TO MOTION FOR LEAVE TO FILE
SUPPLEMENTAL BRIEF AFTER ORAL ARGUMENT

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-437
UNITED STATES OF AMERICA, PETITIONER
v.
REFUGIO PALOMAR-SANTIAGO
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CONDITIONAL CROSS-MOTION OF THE UNITED STATES
IN RESPONSE TO MOTION FOR LEAVE TO FILE
SUPPLEMENTAL BRIEF AFTER ORAL ARGUMENT

The United States does not oppose respondent’s Motion for Leave to File a Supplemental Brief After Oral
Argument. In the event that the Court grants that motion, the United States seeks leave to file the following
supplemental brief in response.
For purposes of this Court’s Rule 21.1, respondent’s
counsel has informed us that he does not oppose this
cross-motion.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

MAY 2021

(1)

SUPPLEMENTAL BRIEF OF THE UNITED STATES
IN RESPONSE TO RESPONDENT’S
SUPPLEMENTAL BRIEF AFTER ARGUMENT

Respondent’s supplemental brief misconstrues the
government’s previous statements about motions to reopen and evades the government’s simple point. Even
after respondent failed to “exhaust[]” any “available”
administrative remedies—as required by 8 U.S.C.
1326(d)(1) before mounting a collateral challenge to a
removal order in a criminal prosecution for unlawful
reentry—he still failed to take any other steps that
might have avoided culpability under Section 1326. Instead, respondent unlawfully reentered the United
States. Neither due process nor “equitable principles”
(Resp. Br. 23) require that he be permitted to contest
the validity of his previous removal order in this criminal proceeding.
1. Respondent asserts that, at argument, the government relied on a motion to reopen his removal proceedings as an “ ‘available’ remedy in the sense contemplated by Section 1326(d).” Supp. Br. 1. That misconstrues the government’s statements. As government
counsel made clear, respondent cannot “demonstrate[]”
that he “exhausted” any “available” administrative remedies because he waived the right to appeal the immigration judge’s decision to the Board of Immigration Appeals (BIA). See, e.g., Tr. 3-4, 10-11, 18, 22-23. That—
as well as respondent’s inability to show that he was improperly deprived of the opportunity for judicial review,
see 8 U.S.C. 1326(d)(2)—resolves the question presented. See Gov’t Br. 10-12, 17-27, 31-37; Reply Br. 27, 11-12, 14, 16, 20.
Indeed, when Justice Alito asked whether someone
who filed a motion to reopen “would be considered to
have exhausted administrative remedies, even though
(1)

2
there wasn’t an appeal to the BIA from the initial removal order,” government counsel replied: “So, candidly, Justice Alito, we haven’t taken a position on that
here.” Tr. 15. Rather, assuming respondent had not
already unlawfully reentered, “what those separate
procedures would do, would allow him, if successful, to
avoid the 1326 charge altogether.” Ibid. Government
counsel likewise emphasized in rebuttal that the “other
methods for obtaining relief and avoiding an unlawful
reentry charge”—including through a motion to reopen—
were “above and beyond” and “[o]n top of what’s constitutionally required * * * and what Congress provided
in Section 1326(d).” Tr. 51; see Tr. 18-19 (responding to
Justice Sotomayor’s questions by stating that the availability of motions to reopen should provide the Court
“some comfort,” but Section 1326(d) does not raise significant constitutional questions because it validly “enforce[s] * * * a waiver of available remedies” in the removal proceedings). The government thus agrees that
the result in this case does not turn on the availability
of a motion to reopen. See Supp. Br. 1.
2. Respondent nonetheless contends (Supp. Br. 1-2)
that, because he was removed in 1998 and Leocal v. Ashcroft, 543 U.S. 1, was not decided until 2004, any motion
to reopen would have been untimely under 8 U.S.C.
1229a(c)(7)(C)(i). But as the government explained at
argument, procedural mechanisms exist to file a motion
to reopen after the “statutory limit” has “elapsed.” Tr.
13-15. The time-bar would not have applied to joint or
sua sponte motions to reopen. See 8 C.F.R. 1003.2(a)
and (c)(3)(iii) (2004); 8 C.F.R. 1003.23(b)(1) and (b)(4)(iv)
(2004); Tr. 14. And if respondent had filed a motion to
reopen subject to the statutory time limitation, he could
have sought equitable tolling. See Tr. 14. Although respondent suggests (Supp. Br. 2) that the government

3
would have opposed, and the immigration judge would
have denied, equitable tolling, the court of appeals’ later
decision in the administrative case he cites acknowledged that a change in law may “serve as a basis for
tolling” if the petitioner “show[s] due diligence.” Doung
v. Garland, 840 Fed. Appx. 977, 978 (9th Cir. 2021) (citing Lona v. Barr, 958 F.3d 1225, 1230-1232 (9th Cir.
2020) (addressing tolling of 30-day period for motion to
reconsider)); cf. In re Arreola-Arreola, No. AXXXXX4-117, 2018 WL 5921078 (B.I.A. 2018) (granting sua
sponte motion to reopen based on same change in law at
issue here).*
Respondent further suggests (Supp. Br. 1) that the
regulatory “departure bar” would have prohibited him
from filing a motion to reopen from “outside the United
States.” But the Ninth Circuit has held that the departure bar does not apply to individuals who were removed after removal proceedings were completed (rather than while they were ongoing). See ReynosoCisneros v. Gonzales, 491 F.3d 1001, 1002 (2007) (per
curiam); Lin v. Gonzales, 473 F.3d 979, 982 (2007); see
also, e.g., Garcia v. Holder, 472 Fed. Appx. 477, 478 (9th
Cir. 2012) (noting government’s acknowledgment that,
in light of Lin, BIA erred in relying on departure bar).
* The parties have focused on motions to reopen, but the regulations also provide for motions to reconsider based on “errors of * * *
law.” 8 C.F.R. 1003.2(b)(1); 8 C.F.R. 1003.23(b)(1); see 8 C.F.R.
1003.2(b) (2004); 8 C.F.R. 1003.23(b)(2) (2004). In 2004 (as today),
immigration judges and the BIA had sua sponte authority to grant
reopening or reconsideration, but no provision expressly addressed
joint motions to reconsider. See 8 C.F.R. 1003.2(a) (2004); 8 C.F.R.
1003.23(b)(1) (2004). Although the regulations were revised in 2020,
see Tr. 14, those changes have been enjoined, leaving the prior regulations in place, see Centro Legal de La Raza v. Executive Office
for Immigration Review, No. 21-cv-463, 2021 WL 916804 (N.D. Cal.
Mar. 10, 2021).

4
And, as respondent observes (Supp. Br. 1-2), the Ninth
Circuit has held that the departure bar does not foreclose a statutory right to file a motion to reopen. Those
decisions post-date Leocal, but respondent could have
raised the same contentions earlier. See Lin, 473 F.3d
at 982 (relying on circuit decisions from 1999 and 2005).
Respondent was not guaranteed relief, but he did not
even try before his unlawful reentry.
3. Respondent errs in contending (Supp. Br. 2-3)
that a successful motion to reopen would not have “allowed [him] to avoid prosecution under Section 1326.”
Contrary to respondent’s suggestion, if his removal proceedings had been reopened and terminated before his
unlawful reentry, the government would construe Section 1326(a) not to reach his conduct. Moreover, respondent effectively ignores the other option that government counsel discussed at argument. See Tr. 4, 1415, 18; Supp. Br. 3 n.*. If respondent had obtained the
Attorney General’s permission to reapply for admission
before unlawfully reentering, he could not have been
prosecuted under the terms of Section 1326(a)(2)(A). In
either circumstance, if respondent had successfully pursued other options before unlawfully reentering the
United States, he would have had no need to invoke the
affirmative defense in Section 1326(d).
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

MAY 2021

